 Deparment of Health and Human Services

                    OFFICE
    INSPECTOR GENERAL





     INDIAN HEALTH SERVICE

MEDICARE AND MEDICAID PAYMENTS

    MAAGE:MNT ADVISORY REPORT





                t.IlVJCE$.



                             Richard P. Kusserow
                             INSPECTOR GENERAL
        "0
                                MAY 1991
             ;clt""Ia
 Deparment of Health and Human Services

                       OFFICE
    INSPECTOR GENERAL





     INDIAN HEALTH SERVICE

MEDICARE AND MEDICAID PAYMENTS

   MAAGEMENT ADVISORY REPORT





            ~ S t.IlV'CES .



                              Richard P. Kusserow
                              INSPECTOR GENERAL
       '0
            + OEI-
            ;clt"dla
                                    07- 89-00941
                    EXECUTIVE SUMMARY

PURPOSE

To assess the appropriateness of retaning or elimnating the Indian Health Service (lS)
multi- year account now that all of the IHS hospita facilties have met the Health Ca Financing
Admnistration (HCFA) requirements for parcipation in the Medcar and Medcaid Progrs.


BACKGROUND

Cunnt legislation requires that Medcar and Mecaid payments due to ms hospitas               be held
by the Secrta ofDHHS in the Secretar spial fund acount and use by               hi  exclusively
for makng improvements in hospita facilties that ar necssar to achieve compliace with
HCFA' s conditions of parcipation. The legislation provide for the speia fund account only
until such time that the Secrta certfied that substatially all of the  il facties have met
these conditions and standads. rns reuirs that paymnts due ms         hospita facilties be routed
by the Medicar Fiscal Intennedar and the Medcaid State Agencies thugh IHS Centr
Offce, which in tu " apportons " the funds to IHS ara offces for distrbution to the individual
rns hospitas.




FINDINGS

      Substantially all of the rns hospital facilties have met the HCFA conditions of
      parcipation since 1981. In fact, at the tie    of our review, all of them met those
      conditions.

      The " Indian Health Car Improvement Act" contiues to pennt Medcar and Medcaid
      monies to be deposited into the Secretar s special fund account even though all of these
      facilties have met the HCF A conditions of parcipation.

     The Secrta s special fund account for Medcar and Medcaid payments is vulnerable to
      abuse.


RECOMMENDATIONS

     The IHS should phase out the Secretar s special fund account and expetio sly develop
     methods and procedurs by which all IHS hospitas can diectly receive and account for
      the use of Medicare and Medicaid funds.

     The IHS should seek legislation to expand the demonstrtion progr authorize by
     Public Law 100- 713 to a more representative sample ofmS facilties and to modfy the
     restrctions imposed on the use of these funds.
                                                ..................
                                ...................... ........ .... ......................................................
                                                                                             ......................
                                                                      ............ ....................             ........................
                                                                                                        .......... ..............
                                                        ..................................................................        ..........
                                                                                                                                    .........
                                                                                                                                 ...........




                        TABLE OF CONTENTS

EXECUTIVE SUMMARY

INRODUCTION.................................................................................................... ..


      Purpose.............. .............................................. .....................................................


       Background.................. ........................................ ...... ..........................................


FINDINGS .............................. 


REC 0 MMEND A TI 0 NS .............. 


DISCUSSION .......... 


CO MMENTS...................... .................................... ........ 


APPENDICES

      APPENDIX A: ASMB Comments................................................................. A­


      APPEND IX B: HCFA Comments ...................................................................


      APPENDIX C: PHS Comments .....................................................................

                                            INTRODUCTION

PURPOSE

To assess the appropriateness of retaning or eliminatig the Indian Health Servce (lS)
facilties multi- year account now that substatially all of the IHS hospita facilties have met the
Health Cae Financing Admnistrtion (HCFA) reuirments for parcipation in the Medcar
and Medicaid programs.


BACKGROUND

On September 30, 1976, Public Law 94-437,                 Indan Health Care Improvement Act     was
enacted by Congress. This law mad an exception to Sections 1395f(c) and 1395n(d), which
prohibits payment of Medicar and Medcaid monies for tratment provide in Fedray owned
hospita and skied nuring facilties. The law reuirs Medcar contrtors to deposit
Medicare and Medcaid funds, which ar claied by ilS facilties, into the Secta                      spal
fund account which is to be used to make improvements in its facilties. The funds deposited
durng one fiscal year can be used durng that year and durg tWo succeeg year for expenses
related to achieving and maintaing HCFA' s stadads for prvider parcipation. The law
furer provides under subsection (c) that the restrctions impose concering the collection and
use of these funds would cease to apply once the Secta detenes and certfies that
substatially all of the ilS hospitas and skilled nuring facilties ar in compliance with
requirements and conditions as specifed under Title            xv
                                                           and XI for Medca and Medcaid
parcipation.

On Januar 4 , 1975, Public Law 93- 638,    Indian SelfDetermnation and Edationa Assistance
Act was enacted by Congrss. Congressional fmdings, as state in Section 2(a)(1), ar that " the
prolonged Federa domination of Indian servce               progr
                                                            has served to reta rather than
enhance the progress of Indian people and their communities by depriving Indians of the
opponunity to develop leadership skills crcial to the realzation of self- goverent, and has
denied to the Indian people an effective voice in the planning and implementation of program
for the benefit of Indians which ar responsive to the tre nee of the Indian communities.

On November 23, 1988 Public Law 100-        Indian Health Care
                                                   713,                        1988" , was
                                                                               Amendents of


enacted by Congress. This law authorize ilS hospitas to collect tratment charges frm
private insurce companies. Furer, this law authorize the establishment of a demonstrtion
progr, beginning in October 1991 and ending September 30, 1995, in which four ilS hospita
facilties, operatig under contract            by Indian trbes or   Alaka Native organizations,'would
directly bil and receive reimbursement frm Medcar, Medcaid and third par insurce
sources. The goal of this demonstrtion progr is to detennne if these ilS hospitas
capable of biling, receiving and accounting for the use of these funds without
direct IHS Headquarer s intervention, which is in accordce with          Indian Self
                                                                               the


Determination and Educational Assistance Act , Public Law 93- 638, reauthorize as Public Law
100- 472. Upon conclusion of the progr, the Secta      wil repon to Congrss concerning
whether dict biling and reimburment should be expanded to other IHS hospita facilties
which are operated under contrt.

We have conducted discussions with offcias of IHS, the Joint Commssion on Accrtation of
Health Ca Organizations (JCAHO), HCFA , and the Fiscal Intennedar for IHS Medcar
claims, Blue Cross of New Mexico, concerning the rns hospitas ' certcation status, the
deficiencies identified in these facilties and the routing of Medcar and Medcaid payments. In
addition, previous government repons addressing Medcar and Medcaid funding to ilS
hospita facilties were analyze. We have also contated Congressional sta to obtan the
legislative history of Public Law 94- 437 and Public Law 100- 713.
                                    FINDINGS

Substantially all of the IHS hospitalfacilities have met the HCFA condions of parcipatn
since       In fact, at the time of our review, al of them met those condtions.
           1981.




The Genera Accounting Offce issued a letter repott, number B- 211198, Subject:
 Medicare/Medicaid Fund Can Be Better Used To Correct Deficiencies in Indian Health
Service Facilities " (GAO HRD- 83-    date August 16, 1983. In this document, the GAO
                                   22),


advised the Secrta, that as of September 30, 1981, all of the rns facilties met the Medicare
and Medicaid stadas, and that the Medicar and Medcaid funds were now being used to
corrct stafmg deficiencies and to fund maintenance of the hospita facilties and equipment.


The llS records  establish that the majority of the rns hospitas were certed for Medcar and
Medicaid parcipation in 1977, and that the last IHS hospita was certfied for Medcar and
Medicaid parcipation in December 1983. All but tWo of the IHS hospitas ar        accrte
                                                                                      by the
JCAHO. The remaning tWo facilties ar certed by the HCFA. It should be note that rns
does not operate any skilled or intennedate car nuring facilties.


The uindian Healh Care Improvement Act" continues to permit Mediare and Mediaid
monies to be deposited into the Secretary s special fund account even though all of these
facilitis have met the HCFA conditions for partcipaton.
Title 42        1395qq(a) is an exception to the prohibitions contaned in Sections 42 D.
                   C.


1395f(c), and 1395n(d), which prohibited the issuance of Medcar and Medcaid payments to
Federa facilties. Subsection (c) of this Title dited that Medcar and Medcaid payments be
placed in a special fund and used for the exclusive purose of makg any improvements as may
be needed to achieve compliance with the applicable Medcar and Medcaid conditions and
requirements. This section of the law is operative   only unti such time that substatially   al of
the rns facilties have met these conditions and stada. Once the Secta determes                and
certfies that the rns facilties have met these conditions and requirments, the facilties would
then be eligible to receive payments diectly from the Medcare and Medicaid progrs. These
funds would then be available for payment of operating expenses.

However, even though all the IHS facilties meet Medcar conditions and stadas, the
Secreta has not officially detennined and certed that this is the case. As a result, the
Medicare and Medicaid funds continue to be deposited into the Secrta s speia fund account
instead of being sent dictly to the IHS hospitas which provided the car and biled the
 Medicare and Medicaid programs.



The IHS records establish that in Fiscal Year 1989, the Medcar progr issued payments for
tratments at IHS hospitas totalling $35, 103, 789 and Medcaid payments were mae which
totalled $39, 716, 363. The total Medicar and Medcaid reimbursement was $74 820, 152.
The Secretar s special fund   account for Mediare   and Mediaid payments is vulnerable to
abuse.

The Secta s special fund account is vulnerable to abuse due to the legislative provision that
allows the funds to be used over the cour of th fiscal years. Evidence of the vulnerabilty of
this fund to abuse was reently uncovere by our offce. In one Ara Offce, we found that in
excess of $2 millon of funds appropriated for Indian youth alcoholism progrs under Public
Law 99- 570 were apparntly divened to the Medcar and Medcaid facilties fund for the
purose of caring over unspent progr funds into the next fiscal year. Without this diversion
these funds would have revert to the Treasury. We have referred this situation to our Offce of
Audit Services for furer review.
                     RECOMMENDATIONS

The IRS should phase out the Secretary s speciafund account and expeditiously develop
methods and procedures by which all IRS hospital can directly receive and account for the
use of Medicare and Medicaidfunds. This can be accomplished by:


     The Assistant Secretar for Health developing and implementig appropriate accounting
     systems at all hospitals to bil, receive and account for the expenditure of Medicare and
     Medicaid funds.

     ilS should   initiate action to develop appropriate accountig systems for use by al IHS
     hospitals. In addition, the IHS should establish appropriate audit controls and oversight to
     assure that the monies received and expended by the individual hospitas are utilzed in ac­
     cordance with legal requirements.

     For those facilities, which are so small that it is not economically feasible to have account­
     ing staf on site to implement this recommendation, an alternative would be to establish
     the responsibilty for accounting and expenditure control at the area offce rather than at
     the hospital facility.

     The HCFA Administrtor, in cooperation with the Assistat Secrtar for Health, preparng
     documents for the Secretar to offcially detennne and certfy that substantialy all of the
     IHS hospita facilties ar in compliance with the HCFA conditions for parcipation in the
     Medicare and Medicaid programs.

     This determination and cenification wil remove the restrctions on the dict payment and
     use of Medicar and Medicaid monies by ilS hospital facilties, as contaned in Title
          c. Section 1395qq(c). With the restrctions removed, individual IHS hospitas could
     be placed into direct payment when IHS has notified HCFA that appropriate accountig
     systems and audit controls are in place.

                                       in cooperation with the Assistant Secretar for Manage­
     The Assistant Secretar for Health ,
     ment and Budget, eliminating the Secretar s special fund account into which Medicar
     and Medicaid payments are now deposited. The account could be phased out over several
     years. As each hospita or area office developed acceptable financial management
     capabilties, it could directly receive and use for operating expenses those Medicare and
     Medicaid payments which it collected. However, Medicare and Medicaid funds collected
     by those hospitals or area offices not yet capable of managig them could be deposited
     into the Secreta s special fund account to be maaged as currently done by IHS. Ul­
     timately all hospitals or area offces would maage their own Medicar and Medicaid
     funds and the multi year account would be eliminated entiely.
      In eliminating the Secreta s Special fund account, the caning-over of funds would be
      governed by standad GAO fmancial management priciples, which depend on " purpose
      of use " and canover procedures (e. g. capita funds can be cared over).

      We recommend accomplishing the above four steps within five years.

We believe that the ilS should expeditiously begin implementing the preceding
recommendation. However, if this is not possible:

IHS should seek legislation to expand the demonstration program authorized by Public Law
100- 713 to a more representative sample of IHS facilities and to modify the restrctions
imposed on the use of these funds.

The demonstration   progr authorized by Public Law 100- 713 authorized no more than four
IRS facilities to receive dict Medicare and Medicaid reimbursement and to utilize these funds
for facility improvements in order to meet and mainta HCFA' s conditions for parcipation.
This demonstrtion progr could be expanded to include facilties of varous bed sizes and to
detennine the tye of accountig system and audit contrls that are best suited for use in smaller
and larger facilties.

The demonstration project could be expanded to include IHS facilties that parcipate in either
the Medicare and/or the Medicaid program. Funher, the demonstration program should be
modified to allow the use of Medicare and Medicaid funds for facilty operating expenses other
than those related to maintaining HCFA' s conditions for parcipation. This would be in line with
payments made to other federally supponed providers such as community health centers and
migrant health centers.
                                DISCUSSION

The proposal:

            is consistent with the goals of the Indian Self Determnation and Educational
            Assistance Act;

            would provide an incentive for IHS hospital facilities to aggressively pursue
            collection of Medicare, Medicaid, and third part payments since they would be
                                          fu;
            allowed to retain and use these

            would eliminate an accounting structure which is vulnerable to abuse; and,

            would promote the development offinancial management systems and exertise
            necessary for IHS hospitals to achieve greater management effectiveness.

The proposal would allow funds now being exclusively tagete to     mata      Medcar and
Medicaid certcation reuirments to be used for operating expenses. Ths would not
jeopardize the certfication of the hospitas, since the Serce Unit Dirto would be responsible
for ensurng that within annual funds available, includig reimburements, mataing Medcar
and Medicaid progr accredtation would be his or her fU't prorty. Funds       nee     for ths
purose would be reuested thugh the        norm    appropriations proess and would be  subject to
the usual oversight of the Deparental, OMB, and congrssional budget proesses. Ths would
likely result in grater accountabilty and promote mor effective certcation    progr.
Overal, we believe that the Secrta s special fund for reeipt of Medcar and Medcai
payments has served its original purose of briging IH facilties up to Medcar certcation
stadards. Now rns is faced with new challenges in it s hospita progr. Among them ar:
the effective collection of thir par payments (includig both private insurce and Medcar
and Medicaid payments); the development of effective financial management and accountig
systems in the hospitals and area offces; and promoting self determnation of Indi trbes. The
fmancial management strctue established for past year ' problems is inappropriate to tackle the
new ones.
                                    COMMENTS

We received comments to the      dr of this repon frm the Assistat Secreta for Management
and Budget (ASMB), the Assistat       Secta for Health (ASH), and the Admistrtor for the
Health Care Financing Admnistrtion (HCFA). Based         on these comments, we have
appropriate changes to this repone These comments ar     included in Appendices A- C of this
repone

The ASMB supponed the 010 findings, but recommende that we expand our descrption of the
proposal (page 6) to clary that our proposal would alow funds now being exclusively tageted
to mainta Medicar and Medicaid certfication reuirments to be used for other operatig
expenses. They also suggested we clarfy that the Service Unit Director of the facilty would
continue to be responsible for assurng that the IHS facilty met and maintaned Medcar and
Medicaid progr accrtation.

We agre with their comments and have incorporated this language in the repone

The HCFA fully support the 010 recommendations of this report, but noted that they would
need additional fundig to cover the costs associated with the certfication, audit and other
adinistrative costs for HCFA and Medcar contrctors to perfonn         nee    reviews of IHS
hospita facilties.

The PHS did not concur with the 010 reommendations.

PHS believes that the present system, in which Medcar and Medicaid funds ar retued to the
Areas that provided the services and ar earked only to elimnate deficiencies in each health
care facilty, has worked well and they see no clinical or admnistrtive advantage to changing
the system. They estimate that implementation of our recommendations would reuir at least
10 additional employees at each hospita to perfonn fmancial and certfication functions.

The PHS also believes that the recommendations would crate accounting diculties. They cite
that the process of biling and collection is contiuous. Collections received late in the fiscal
year, if not expended, would reven to Treasur and would not be available to meet payrll costs
for those staf funded by this activity. Since this is a cash account, adequate funds must be
cared forward into the next fiscal year to meet payrll costs for at least th     pay perod.

The PHS also did not concur with our recommendation to expand demonstrtion progrs.
They point out that the demonstration program was designed for the express    pur of allowing
trbally contrcted program to diectly bil and receive payments. These    trbal contrt
progrs have accounting systems and other fiscal contrls in place. On the other hand, rns
facilties (operated    by the Service Units) do not have separte accounting functions and canot
meet Treasur     and   OAO requirments. PHS believes it would be counterprouctive and not cost
effective to instal    these accountig functions and fiscal contrls at local IHS-operated hospitas
and facilties.
OIG RESPONSE TO PHS COMMENTS

We continue to support our reommendations.

The cunnt system which permts nonnal approprations to rns and provides for a Secta
special fund accountbre    arficial distinctions which impai the implementation of sound
accounting, recordkeeping and management pratices.

Restrctions that ar imposed o. the use of the Secta spial fund account hampes the
abilty of PHS to plan and maage its progrs. These restrctions make it dicult for PHS to
                                                       progr.
utilize these funds to respond to shortalls in IRS health           For example at the FY 1990
Select Commttee on Indian Affais Budget Hearg, the Dirtor of the Indian Health Service
                                                il
testified that the IHS projecte a shortal for the      in FY 1989. Based on ths testiony,
                                                                                      tie (F
Congrss provided $14 millon above the Prsident s budget reommendation. At that
1990), the Secrta s speial fund had a carover of $12, 698,360.

We believe that flexibilty is neeed in the use of Medcar and Medcaid reimburements so that
ilS can fulf11 their mission of providing health car to Native Amricans.


As far as accounting capabilties ar concerned the PHS cortive      action for the High Risk
Area: Management of the Indian Health Service (PHS-89-   0J-HR)"  cite  in      Federal
                                                                                the


Managers Financial Integrity Act Report to the President and Congress date Decmber 1990,
item 7, (pages 18- 19), appear to agr with our position that accounting functions and fiscal
controls should be implemented at the local hospita level. IRS appropriations for FY 1991
included $2 millon to implement this policy.
APPENDIX A

 ASMB COMMENTS
                               \.'   ''
                                      ,.


 DEPARTMENT OF HEALTH !1 HUMAN SERVICES
                                           :. /
                                             ':- , .      ".
                                                          . , -. -.
                                                          Office of the Secretary


                                                          Washington . D. C.   020'

                                           OCT 2 5 1390


MEMORANDUM TO THE INSPECTOR GENERAL

       Attn: Alan     Levine .
From          . Kevin E. Moley             1-:
           ' oJ Assistant Secretary for ' Kanagement and Budget

subj ect :     OIG Management Advisory Report: "Indian Health Service
               -- Medicare and Medicaid Payments, " OEI-07-B9-00941


We have reviewed the OIG Management Advisory Report on IRS

Medicare and Medicaid Payments and fully support the findings,
with one exception. We would propose that the first paragraph in

the Discussion       section
                       (page 6) be revised to read:

       The proposal would allow funds now being exclusively targeted

       to maintain Medicare and Medicaid certificatio requirements
       to be used for other operating expenses. This would not
       jeopardize the certification of hospitals, since the Service

       Uni t   Director would be responsible for ensuring that wi thin
       annual funds available, including reimbursements, maintaining

       Medicare and Medicaid program accreditation would be his or

       her first priority.


We support removing the current restrictions imposed on Medicare

and Medicaid funds, however, we believe we should extend

flexibility on the use of all funds -- both appropriations and

reimbursements -- rather than imposing a different set of

restrictions, as the OIG is               proposing.
                                        Currently, approximately
$65 million of Medicare and Medicaid collections are used

annually to fund staff positions, equipment, and some facility

structural improvements which are considered essential to

maintaining accreditation standards. We believe that the way the

management report proposal is drafted, all funds necessary for
maintaining accreditation would be interpreted by the IHS and the
Tribes as coming solely from annual appropriations.
We prefer to lift administrative limitations. This should permit

Service Unit Directors to manage health care delivery within a

combined annual budget allocation, including direct

appropriations and reimbursements. Since collections would be
retained by the billing facility, a strong incentive would exist

for maintaining accreditation so as not to lose the abi 1 i ty                 to
bill Medicare, Medicaid, and other third party insurers for
services. After  meeting and maintaining standards of
participation, any remaining funds could be used by a Se rv ice
unit Director to expand programs and services to its serv ice
population without jeopardizing accreditation, or qual i ty 

care.
APPENDIX 

 HCFA COMMENTS
          DEPARTMENT OF HEALTH II HUMAN SERVICE                                Financing Administraon



            DEe 3                                                              Memorandum
Date
          Gai R. Wilensky,      Ph..
                                       t:rJ
From        dm;n;   trtor




Subject
          OIG Management Advisory         Report: " Indian   Health Servce- Medicae and
          Medicad Payments , OEI-07-89-00941

          The Inpector Genera
          Offce of the Secrta


              We have revewed the subject report which concern the appropriteness
          retaig or eliating the Indian Health Servce (ll) facities ' multi- year account
          now that substatialy ail of the IHS hospital facities meet the Health Cae
          Financing Admitrtion (HCF A) requiements for parcipation in the Medicae
          and Medicad progr.

              The report recommends that the HCF A clm;ni trtor, in cooperation with            the
          Assistant Secreta for Health prepare documents for the Secreta to offcialy
          determe and cert that substatilly al of the IH hospita facities are
          compliance with the HCF A conditions for parcipation in the Medicae and
          Medicad progrms. HCF A concurs with this recommendation. HCF A also
          encourages IRS to establish a review sytem immediately upon the adoption of any
          phase- in plan of direct payment to IHS hospitals to ensure that funding is stil used
          to maitain the certification status of the IHS facilties durg the OIG' s S-year
          plan.

              Should the recommended action be implemented, the IRS hospitals would be
          subject to the same audit and reimbursement guidelines cuently in effect for other
          Medicare hospitals. Additional funding to cover the certifcation, audit and other
          administrarie costs for the IHS hospitals has not been included in our budget
          requests to date ,   and would require additional funds for the Medicare contractors
          involved.

              ThinK you for the opportunity to review and comment on thi fial          repone
          Please advise us whether you agree with our position on the report
          recommendation at your earliest convenience.
APPENDIX 

 PHS COMMENTS





      C - 1

                                                    :-                   , "

 -:tL
-:'z
                                                                                      PDIG

                                                                                                                   Memorandum
                                    4 155

 Cate

 From         As s i s tan t S              e c r        t a I' y for Rea 1 t h

 Sui;j        PHS      : s on 0 f f ice 0 f
                          Co m= e           s p e c tor G en era 1 (0 I G) Ma                                         nag      me
             Advisory Re?ort " Indian Health Senrice--Medicare and                                                          Madica
             Payments
             Inspe:::or                    Gene:-al, OS


             Attached                ara t:Je              PHS comments .on           the subj ect           OIG manage::e
             ad' ; i s 0 ry          report.
                              i t h the r e ? 0 r t - S r e co mm end a t ion s t
                         d 0 not     con                                                                              h a :
                   e I S s ould (1)
                                phase out the multi- year facilities account
               deve::? me: ods and proced res by wh ch all Indian Eeal:h
            Ser7i:e (: 5) hos?i:als n di:-ec:ly receive and a::o n: fo:-
            t:Je use 0: M:dicare and Medicaid f nds, a d (2) see
             1 ei s l a : i = n to t :J e demo n s t :- ion pro
                                                    e x ? a n
  au: her i zed b y         a t
            Public ta 100-713 to a more representative sa ?le 0:
                                                                                                     g r a



            facilities anc modify the restrictions i posed on the use 0:
                   ese       ::::::5.
            wit h I' e gar:                 to t h e             fir s : r e c 0 mm end   a t ion, the D     HHS   He a It h
            Ac:o n:ing 5yste= and its subsystems , currently in place
            greatly fa:ili:ate the         nd control bet een hospitals and IE5

            Area O::i::s and meets the require ents of Office of Managemen:
            and Budge: Cir:ular A-34           Instructions on Budget Execution.

            Medicare a c Medicaid funds a:e deposited into the multi- year
            s?e:ial a::ou t in accordance with appropriate statutes and
            a?prop:-ia:io:l acts. All funds collected from Medicare and
            Medicaid a=e returned to the IRS Area Office which collects
            the = and are g e n era 11 y ex? end e d b   e S e rv ice Un i t t h a:   Y t
            provided the se:-vices.
            Regarding the second recommendation , the demonstration program
            was designed to allow tribally contracted programs to directly

            bill and receive payments. Progr ms that are contracted under
            the authority of Public La 93-638 have accounting systems and
            other fis               cal                  trols in
                                      place which are aaequate for a proper
            s te ardshi? of Federal                             funds.
                                            IRS facilities which are
            ope=ated by IES do not have separate accounting syste s and

            cannot meet the requirements of the Treasury and General

            Accounting Office to handle funds and comply with other

            financial management requirements. We believe it would be

            counterproductive and not cost effective to institute this
                           local IRS ope ated hospital or facility.

                                     l)e


            FEE            1 1991
                                                                                      6. Iv
                                                                           o. Ma son, M. D . , Dr. P . R .
               OFFiCE Of
         INSPECTOR GENE:\At:
            Attach::en=
-..-
--;- ::-..---
!..
)._      ""-=.."".,=.
          --       ;--,   - :--                  .:..
                                                 '-              ..- 
 =' -- -...
                                                         ...';---=_.._
                                                                 -;­""-
                                                                   '--
                                                                    --
                                                                    -::-              -;
                                                                                --~~~..-
                                                                                     .-.
                                                                                       ""::
                                                                                       --   """";
                                                                                            _.\. =- ... .....- --   :-.         -..--=-..-.-......
                                                                                                                                ..        -
                                                                                                                                          - - - '--       .,~~~- --....
                                                                                                                                                        ..,.
                                                                                                                                                          ..
                                                                                                                                                       ....-     ';_=,-..;-..'---...-
                                                                                                                                                                    ..   ...
                                                                                                                                                                         ..         ---




                                PU-.cIC Eu..TH SERVICE CO ..NTS ON
               TEE OFFICE OF INSPECTOR G                            JJVISORY REPOR
                                       ' S                                  NT

                  " I u IJ.. 1l.:..T5 SERVICE-!--EDID.RE Jo_ ..DIO_ID       NTS "
                                                                                                 OEI- 07- 89-00941

      General Comments
                e rec=                    e Sec=eta=- cete
                                             encation to have

      Indian Esal 
                      hospitals a=e L substantial rvice (IES)
      ccmDlia=ce

  and - Ti
                            e re        ents and c:nditions ef T
                             e Sccial Secu=itv Act, while
                                                                          X-vIII                                                                                                           tle
                            tle XIX of
                                                                    e su=face
  a positive                     e IES, may not be  step fore best interest of

                                                                                                                                                                           en



 the Jo_ce::c:"r. The
 hospi tals - will
                                                                            dete::ation
                                            of substantial cOI!:;lie."'ce of IES
                                    e restrictions en t e di=         ayment
                                                                  rEmove

 and use ef Medi a=e and Medicaid monies by IES facilities , as

  contained         Title 42 U.         , section 1395
                                            in             (c). Wi
             i:ns . removed             pos          at some Medica=e and                                            ibl
 Mec           runes would be a 7erte to ot er IES p==              s c= t

     e 1ES a ual a=            =ia         would bE red csd ac=== clv.                            icn
     der t s present syst
 c=llec
                                                   d Medicaid me                                    Medica=e                                                                      iss
                 y I=5 a=e utilized to c===ec de=iciencies
                                  sd

   c;-_                           c:..            - 'c
        nis =ative e                         fu. ds c=llec =d f=c= Me ca== =ellence.

     c Medicaid a=e ret ==e to t                 ea whic c=llec          == a
 c;e e==.ll:-- e:c e!:c.e.:: in t:.e S=:=Tice             :f=="T::  t:.e                                                   ur:it              t::a.t
 ss:=.. ics.= .
The rscc                                                daticn to phase out

                                           d develop met ods a
                                                                                                                           e m           l ti- year               facilities
                                                                                                                                                               y which all IES
                          -c,--
accou=t                                                                                                        d procedu,=es


vc"'.;                                                    'Uc";;
                                                                                                                                                                               J. ..-     1:
J."                                                       J."'                             .L                             (1)            =c:...'-

       ....c.- ..---- ---                                  .Q";                                                     :o'
                                                                                                                                                          (2) -
                                                                                                                                                       ti_-'-
c...c.ncor ..__-Io o                       c:- ..- .."la 10 _c._
                                  un.._"'g -ys..==
                              ""c""-
                                                                  I. - P-__ C__ 10                     ac_..
Extre!!elv well. 
     IES hos"Oitals c 4l_ sntl-            E ES Eealt                                                                                    "r use 

 c::ou.                                 e most sc'Chisticated a.'"C
fle ible
                                       c Svsts! which is ene of


                      use, to ccrrectly bill
                                       systems
                                                   d collec Medicare   in

and Medicaid fu.'"c.s. These funds' are de'Cosited in a multi-year
accOw      accord            law and reguiation and prevent
collecticns
                                                                                 ce       wi

                                                        received late in                                         e fiscal yea=, if not e                                                       ended,
from reverting to the T=easu-

We believe the present system, L which Medicare and Medicaid
funds are promptly and accu=ately collected and                                                                                                                          retu--ned to 




elima te
        a t provided the services and are ea.
          eas
                                                ked only to
           deficiencies in each health care facility, has worked
well and we see no clinical or                 advantage to                                                      admistrative
changing the system.
Because there se s to be a very sianificant difference of

opinion, we would be pleased to meet with appropriate eIG . s                                                                                                                                      aff
and PHS/IHS staff to discuss and elaborate on the PHS pOS.:t
on these very important issues.
                     ------
                        ---  '''   '" ---
                         ="":"-' ..-=
                        -----_
                       ':-            .;-, ;..                             -'
                                                                       ..-..   .. ".       ..    .: ..~~~
                                                                                                        ..   '(                 -;.=..       --.-   . -   ., ","    '---


      Page 2


      OIG Recommendation
      TE     XES''O UL PEA OCl 1! H!TI-   FACJITIES ACCDrJ AN
      EIEDITIOUSLY DEVP J!ODS AN PROCEURS BY WHCH.A XES
      HOSFIV..S O.. DIRc:Y RECEIV AN ACCOUN FOR TE USE OF
  MEIC.u: .7.. HEICA FTS. THS QN BE ACCDMLISZ                                                                                                              BY:
            sistant Secre tary for Health developing an
                                     entincr a
                            pitals to bIll, - receive
                                                              Dro riate account                               cr S7st                    s at
      all
                                           and acc;un                                                                           for the             e:q?encitu=e
                of Medicare and Me icaid funds.

                        e IES should initiate action to develop                                                                          appropriate
               ac==             tin                 systems for use by 
                                      IES hospitals.
                            ition
                                the IES should establish a Drc riate audit
                                                                                                 all



                           =ls and oversi ht to assure        t- t. e monies receive

                        d ex ended by t. e - individual hos i tals are utilized L
                                       -- .. W_ I.,        o. - c:- r::                          e_.l.s.
              Fe= t cse facilities which are so s                                                                     all t. at                  it is net
              Ec= cmicallv feasible to have ac=                                                                       tinc: sta== en                  site t
                                               is recc                                                       alte                                                  e t=
                                           J. .J. --
                                                                               endation,

                                                                                                                  "-tw...,-.-
                                                                                                                                  ative would




                     'V-:--- ----- c_---_                          o- a.. 1. e a_ e-                   c_
                                                                                                        -=-=; c
                                                                                                                      c- ------- 1.;Jc:_ .I                 .-.

              .1.;                 I.':-
PES COr..:ents
We do ne            conc     Tbe IES operatec hos itals currently use the
F-= S        EE=.lth Accounting System. This syste! wit. its subsystems
is c e cf the mest sophisticated and flexible syst    in use.

Ove= $20 billion a year                      d e enditures a=s
        in EES obligations 


  ==s      eing proc=sse
                      ly    This system has been used to
co==sc ly bill and collect nearly $75 million of Mecicare anc
Medicaid funds in FY 1989. The recommendation that IES

initia t action to develop appropriate accounting syst s for

use by                all    therefore, nei er necessar-I no=
                                    IES hospitals

cost effective.
The reccmmendation states     at each hos ital should receive and

disburse the receit:ts.                               ent              In order to conrlv with

Tre=.su=-J   d General Accounting Office 

addi tio al posi tions would be
officers
                                             additional
            d certifying officers. These additional positions
                                                                                           requed for
                                                                                                                  eo ) regulations 


                                                                                                                                                          fince
combined with the madated internal controls would' be
for a proper separation of duties. The Division of Fiscal

                                                                                                                                                          requed
Services , Health Resources and Services Admistration,
estimates that up to 10 full-tiJe employees would be required

to perfc    the required services at each hospital that are now

being performed at the Area Offices.

         =""-----
       -----
       ---
       .=.:--   "';
       ---------..        .;; ;
                          -         '-,;   ' ----
                                             "", ,       "';      ..-.- ==-,
                                                                  =-."    ;. ..
                                                                           '"               ...   ..    '"'- ....           -- '---,...
                                                                                                                             .,;
                                                                                                                             -' ."                       ---
                                                                                                                                    -.. ....-- -::- '-----
                                                                                                                                                        '---   - - ---
                                                                                                                                                        ""--'---
                                                                                                                                                           ::-..;
                                                                                                                                                             ':__
                                                                                                                                                               ""'"..-.. ~~~
                                                                                                                                                                          ..- _-          --




  Page 3


 We believe       s unecessary because Area Offic s presently
                                  this

             ove=s ght and have in place the audit: ccn:ols
 pe:!foDI t. e
 assure a y funds received are expended in accordance with legal

 requr ents.    The EES Health AccountLTIg System aIe.                                                                                                                                         its
 subsysts, cuently      in place, greatly fac litate the fund
 cont=ol between hos i tals and Area Off           e cversiaht of                                                                            ces and t.
 this pa=t of financIal management at hospitals, clinics and

 Area Offi             ces.
                The system meets the rs                 e Office                                                                               re!Ients of t.
                                                                                                                                                                        Inst
 of Mana                         Ci=c lar A- 34 "
                     ement and Budget                   ion on                          (OMB)

 Budget Execution
 OIG Recommendation
       The ECFA ACmnistrator, in coo                                                                                            eration wi                                                           sist
        Seo=eta                            1 for Healt. , prepare documents for                                                                                                           e Seoreta
                                     C.1                                                                                                                 ..;.o:..
       of t.             e IES hospital facilities                                                                              a.e               in ccmplia:ce with
                         con                   ticns for                                               ici;a                                 in                       e M=              =a==


                                            r-w -
               c.ete                                                                        c. ce
       r=- ,-- .1C --_                   .,Q,..
                                            on- n

                       caid monies bv IES hos
                                                  ,.
                                              ification will r cve t:e
                                                    c:     .,c: .: 7w-.-;c.:_-..- -.­
                                                         nation

                                                        c. u-              n-          c._--_.. payme._ ..                                        a...                       c.. ._                         .;c:
                                                                                                                    ital facilities, as c=nta

        i-                1.-- -- .-".                                           , -C_,--                                             C'C"
                         .: '-_w -                                                                nc.          'I_..         c.-                                c-;-               'c


                                           nto                       wI.
                                                                                            .J-                        nen                               ""c


                 p=opriate acoounting systems and au                                                                                                           it      controls are

       place.
PES COIrl!ents
We de net concu=. The Direotor, IES has the dele

authori tv     e manacrement and o
                         for                   e Me icare and                                                                eration of

Medica               - portions                             of Sections 401 and 402 of                                                                                   e Inc.i                     Eealth
Care   :=ovement Act and, as such, is     e off cial authorized

to make the dete rm; nation of substantial com liance with the
Act.  Eeoause of     is delegation, the Director, IES, is the
appropriate official to prepare any documentation for the
Secreta=-1, ERS, that would certify substantial compliance as

defined in Sections 401 and 402 of P . L. 94- 437, Indi   Health
Care Improvement Act.               we do not agree that the                    Therefore

Admnistrator of the Health Care                     st=ation                                                                    ancina

(ECFA) should prepare documents to fo                    at IES
                                                                                  liy certify

facilities are in compliance with the conditions for

participation.
In order to better understand the PHS posi tion reg2. ing the

issue of detexmning that IBS facilities are in substantial

compliance, the following info                                                                                      ation                    s subtted:
                              --
                       '-- - '"                --                '"          --;
                                                                             ..,...., '"    '"..,
                                                                                             --'" ='-  -- ~~~~
                                                                                                  .. .....:..=-  ... -. ..,.
                                                                                                            -----'-.
                                                                                                              :=   -:




Page 4


     (1 )   Lecris la ti      ve                    arund
                   P . L.       94- 437 - Indian Hea           Drovement Ac                th Care

                   aut.       orizec IR to         and collect frcm Medicare
                                                                      bill

                   and Mecicaid.


                   Funds collected are to be placed                                                             a special

                   fund to l:e used for the p  ose of                                                         i:provement:s
                   necessar.f to ach.eve complia,"'lce                                                     with c::nditions
                   and requirements of Tit es 18 and                                                         19.
                  The special fund shall cease to apply wh     the

                                     iia."lce.
                  Sec:reta-ry, EE, dete   es that substa."ltially
                  all hos itals and ski led nu=sina facilities are

                  L"l c
                  The stat-:te states that e.y pa:fents                                                          received
                  shall not                     l:e used L"l dete                                     g a?     :r::priaticns
                  for heal                              re a."l ser7ices t= I
                  P . L.       94-       43i         states                    at re                u=s e!lt f=cm
                  Medicare. ar MeCicaid shall                                                     l:e used t=
                  c--.. 1 = ..1. -- nc.
                  ..u.=--                                                                            t:r
                       '.c:          c..                0.1 1
                                                                 025                              c; c--..-           n-   c:.;--
                  continue                          a=tici;ation i.                                   ca== wc           ld l:e
                  contincrent on meetina 
                                                  sta."ldards - t

                  amendment requres medicare pa:fents to 

                      a=kec for use in meeting and maintainL

                  medicare sta."ldards.
                  Senate Re?o                                 100- 508,            page 22, states " Given
                  past Admnistration attempts to offset 


                  program decreases wi                                             amcu. ts collected from
                  Medi care                a."'c.      Medi      caid re               u=s S!Ien t t.i.e
                  Comm ttee wishes to                                        mae clear t. a t the
                  authori tv to collect                                        reimursements                   from

                  Medicare- and Medicaid programs is                                                        conditioned
                  upon such f                          ds being used only for
                                          e purose
                 authorized L"l the Act, that is to achieve                                                                and
                 maL tain c::mDliance with accreditation
                 standards. II ..
    ( 2)    Joint Commssion on L e Ac:reditation of Healt. care
            Orcranizations
            IRS was directed bv  e Concress to see.1c Joint
            Commssion accreditation rather than rely   upon HCF
            certification. At the outset only 22 IES hospital!
           ;.."- --=
           ---
           '-    '-- --..     .,; "".
                           .."".."',.
                                  --- ". -- -.           ----, :-=-..
                                                          =-- ~~~
                                                               --="".-"'  .. -- .::..-...----:..---
                                                                  ----- ----
                                                                  : - .;,;- -=
                                                                         --  ---              - ..=. '---; --,.
                                                                                        =-- "''',;''''
                                                                                             --
                                                                                            -.;            --_- --   .;       ---, ....: -=    \"          .: -
                                                                                                                                                    .:- -----   --.;
                                                                                                                                                              --.      -          ="'   . =- -=-

Page 5


                 were accredited. Through a long process, IES has

                 attaed accreditation of all its hospi
                 one. At the prese:t tie                                                                                                                         als except
                                                                                                         there are 42 hos:;itals
                 accredi ted                         and one                     at             is        certizied by EC?A.
                 The
               has been no s
                               IE             is     justly proud of
                                                               ll task to ac:cmDlish 

                                                                                                               ths accompliss feat.
                                                                                                                               ent. It
                                                                                                                                    It
               is           2."' acccm'Clishment                                 that                    is           a d.iect rsscl-:                                           of t.
               targetec and directed use of                                                                             e funds c=                                     tained
               the Secretary' s special fun

               Joint
                  Commssion standards are on a con
            oversight, assessment and direct actions relative to

            patient care standards for all aspects of cirect

               atient and outpatient care. This L"'cl ces t.
            various ancilla=-.i (laboratory, pha::c-.f) c.""C support
            services (biomedical services, fire safety c::ce
            en::orcS!ent). T1ls also L'rc.l             .:ali ty                                                          c.es c:aily 


                      nc.                                                                     n.
                                       ..7' r"""" 1 c.,                                                                       .; c                             =ft

           c.-                          1 c""    4. .. ..-                                                                                                             '-..-- - 1.;-
                     J:;
                                .; C   !lc                       - Wo_""-
           sin               le event,                     l:ut rather a dyn                                                            c precess L whic
           there is a constant 
                                                "'covering of c:eficienc                                                                        es whic
                                             "0= - -
                                         ""Co;'                 i-                 -- ...1';-_ .1:                                            c,.              ,.. c:-
                                                   c. . .i -- a_,,_-
                               -..1

                             0:- a!.                           --1 ; .:.._ 0.._- .". p_
          hospi tals, as all other accredi                                                                                                     hospi tals

           count                       , have many cited                                           Tye nex-: s            One deficiencies whic
                             ire cor=ection before                                                                                                        yey by 


          Joint Commssion.

          Failure t:: co==ec            e=iciencies c   result
              loss of Joint Commssion ac:rs tation which
                                                                              vce One




          then cause the facili tv to lose its Medica=e andw
          in




             icaid provider status and    us lose its ability to

          1:e paid       e services providec. At t. e present
                                        for

                all Medicare and Medicaid monies collected are

               =ked and utilized to correct these deficiencies

          and maintain each hos      at the hicrhest level of                     i tal
          clinical and admnistrative                   stated                                                  excellence.

          earlier, if IES hospitals are dete
   ed to
          substantial com-cliance               with the reourements 2.'rd
                                                                                                                                                                           1:e



          condi               tions of Title XVIII and Title XIX of the Social
          Security Act, it 
   possible that some MeCicare and
  is

          Medicaid funds could be diverted to other IES
          programs, or tha t the IES
          be reduced accordL"'gly.
                                            appropr tion would                                           anual
          Standards are dynamc and eve:              representig
                                                                                                         health care.
                                                                                                                             changing

          changes in the delivery of                 These
          chancres must be addressed if ras facili ties are to
Page 6


                 retain their accred. tad status. Loss of the                                                                        d.ected
                 na t               e of the Medicare and Medicaid                                                      funCia would
                 have                  untowa effect on the       hea2t.                                  IE                      care
                 deli         very s tem.
                 we agree                        at substatially                                  all        rES facilities have
                 met the HCFA conditions for paricipation .i Medica=e
                 or ac:=edi tation     e Joint commssion since 1981
                                                                by

                 ane                at     all        43 hospitals now meet                                              ese conditions.
                                          o hospitals are ac:=edi                                         tad by the Joint
                 CoIIssion and                            one        is       certified by RCFA. However,
                while we are justly proud of our facilities'

                accreditation status, we must acknowledge the fact

                that    ey must maintain the accredited status if t."lev
                are to continue                             paricipation in
                                                   both the Medicare ­
                and Medicaid program. The maintenance of the

                ac:=eCi ted status is mandatory if    e facilities are

                to c:ntL ue to receive pa:r.ents from        roq=am.                                                     each




                                      ast b
                           we have stated .i 
         ents and also                              dqet

                   conqressicnal test ony, this ac:=mpl.ishm t is
                                              L":S a. d also to the
                one of great importance to
                                                                          The
                                                                           . r=_
                                                                                          t.;.e

                                                                                                                  r..eacc-            -1.--..
                                                                                                                                      =-i


                status of IES facilities




                bee
                                      roud and justifiably
                                    ely                         This feat has
                                                                     e ta=;ete
                                                                                     is

                                                                                                            so.
                                                                                                  a feat of which IES




                                ac:=mplished as a direct res lt of
                anc. Cirected                        use of the Medicare                                               d Medicaid funds.
                The                 S has grave concexn t. at                                            if t. e            Sec=et          's
                  ecial f          abolished, the f  is      ll be directed                                      c.s

                to general operating expenses. This action, while
                c=es:ti.'"g flexibili ty, would c.epri ve the clincal
                manat=ers of           t.;.e one tool that they have to meet
                spec            al funding needs to correct deficiencies
                main            ain ac:reditation of 
                                    ;.e facilities. The
                ac:=editation of the facilities and                                                                     mai. tenance of
                Medicare standards is one of the best 
                                                                         dications to
                ass          =e that              t."'e highest                  quality of health care is
                bei          c rendered. To do                                less  would be not meetina
                IES          aoal         and mission. It is for these reasons that

                we telieve 
 at abolishing the Sec=eta- s special

                fund is not in the best interest of IHS.
OIG Recc        endation
     The Assistant Secretary for Health, in cooperation with
     the                            agement and Budget,

                      sistant Secretary for

     elL nating the multi-year facilities account into which
     Medicare   d Medicaid payments are now deposited.

.,~~~
.....--
-!",.    -..
       ;;=
   --_."----
   ..::-;::
       -:.
       ~~~
        ..---
   ..,.,,
     -'''-,;
 --- ----
..



Page
            ;,'. ---..-
              .--------
                -~~~
                 ~~~
                 ..  - -~~~~
                     -----..---
                -------
               --------
                     ':  .-;y:
                          .:..-
                        '--
                        -_"'--..
                   "''' ..----
                        ': ----   ..-
                                  -'-
                             -....,. ...
                                     ~~~
                                     ---
                                '-----  ---'-
                                       ----
                                      .:---
                                          ~~~
                                       ..='
                               -. .:.- -    ..-
                                          --.-. ---
                                                '--
                                                --  ....---
                                            ---.."..--
                                                    -":
                                                -----'-    --:---
                                                           --;-;
                                                             -..
                                                           --';"
                                                    ~~~---",,---
                                                             -'"~~~
                                                           ~~~
                                                           ;""
                                                          == ,.-
                                                       :' _.:.
                                                  ..':.:
                                                    ..------      """'--
                                                                  ..--
                                                                :..-_..
                                                                  -"--
                                                                  """'
                                                                 ---
                                                               --..
                                                               -    '''  .._
                                                                     --..",
                                                                       -:--"
                                                                  ~~~~~~~
                                                                     ---
                                                                   - ~~~~
                                                                     .,..   ....
                                                                            -'---.
                                                                          ..---..
                                                                              -'-":
                                                                          --_... ~~~
                                                                              ... ...--
                                                                              "':
                                                                              ..-
                                                                    "'=--j: '---
                                                                    :....,:.             ;--
                                                                                 ----..':.:-;-""
                                                                                              .--
                                                                                             ...
                                                                                              --:
                                                                                       --- :=..
                                                                                      '=             ----..----
                                                                                                    ..---
                                                                                                .._'--
                                                                                               .....
                                                                                              ~~~
                                                                                            ~~~     ~~~  ..---
                                                                                                            ----    :'",--..
                                                                                                                    --..
                                                                                                                .---..---
                                                                                                                --....
                                                                                                             -.,_
                                                                                                      -'-.--.. .........
                                                                                           .. .-- -.. .....
                                                                                   ""-------                            -..
                                                                                                                        =.-    - .--
                                                                                                                         .,­,..---
                                                                                                                              -=
                                                                                                                              ....-.--
                                                                                                               .. ......=: .. -- '- ..--
                                                                                                                              ......
                                                                                                                               ---   --
                                                                                                                                     ..';"'
                                                                                                                                      ;.j; ..
                                                                                                                                     ::-    := "---          .. -
                                                                                                                                                              ":':"'':
                                                                                                                                                              --------
                                                                                                                                                 ..:.......----..
                                                                                                                                            ,.",-:              ---
                                                                                                                                                                ..    ..   -,-..         --
                                                                                                                                                                                     -.;,.
                                                                                                                                                                             -..\. ....-
                                                                                                                                                                       - ..---....       ,. ..-....
                                                                                                                                                                                         ..
                                                                                                                                                                                         \"        ---=''''''--
                                                                                                                                                                                             -': "":;
                                                                                                                                                                                                  ..... .... ---
                                                                                                                                                                                                        ---        ".. ,.
                                                                                                                                                                                                             ......=..'-              .._.:
                                                                                                                                                                                                                         -. -.... ...'-..  "',,=-- -=.,- .. ::';
                                                                                                                                                                                                                                        .:--...&.




                          The ec=oun                                    c:::ulc         e phasec cu                                                          eve: several                                   yea=
                          eac hcs                                                  or a:sa ofiica cevelo ec accs
                                                               maa                          ent ca.:abili                                i=s, It could
                                   si7e a:lc, use                                               r OFe=                                 g e    ses these Medicarg and
                                   .:::a.ic: pa:l!e!l':~ which                                                                     c::llec-:sc. Ecweve:,
                                                                                                                                                   " -2
                                                                                                                                                         1!s ca:e
                                 ' V                                                                              "! c     '" ="a \...                                         hcs          1.
                                                                                                                                                                                                             "1



                          ci=i:es nc                                    yet c :pe.le ci                                                                                         em coclc: be
                                                                                           e mc1-:-vea= ac=::'t 't t:
                                                                                                                                  ma'"egin,;

                          c:s-:cs:. ":ac                       i:1'::                                                                                                                      be menac                                     a.s
                                :'-'2                                                                  """'2i
                                                                                                        t:                                                                      ""_..(8- - =-0::
                                                                                       ;'ac                  \a
                                                                                                                                                               .l
                                                                                                                                                                                        --.f. ---...-_ s. ..
                                                                                                                                                                                                 .. v=-,..:


                          end                  e mul:i-yea: ac==un                                                                would be el                                            :latsci ent =17.
                          We =soommenc ac=                                                          lis                            tls wi
                          -:h ; n 5 yea=s.

PES C::mmer.ts
We                 o nc-: c:::nc= .
                                                                            -:rI
                                                                                   -rlle                === pr:ac-:.;cal =easc:rs t: mci:
                                                                                                                                       -'2                                                                        enc:       -..._w
                                                                                                                                                                                                                                      i:                i.s
                                                                                                                                                               - ; -0                                                                w.
                    e=s c: S                                          Ca                                                       c=s                                                      = C
        t:-'=""":::                                -=_t---          "c:-    ,i.
                                                                                            m",=
                                                                                                                                                                        d'- -- .""-:""--

                                                                                                                                                                                                                  e a
                                   a: a                                                                      t=                                                             tase.

                                                                                                                                                                                                                     ..-- w-
                                        .'t-                                                1T- ­       Co .. 



 - 'o                           - w.. 


                                            =se ac=i 
                      =i=             a: S                                                                2 a::==:                                     s17
$15 mill.icn.
Rec=mms=ca                                          =n 3                    ces nc                           =;cc                       :e                      5.                               at cve= t e pa:
   c.::-o: ..                                                                                   ::u-- 1:": -F-- 'MC"::,.2--=
                          :ma      c.                                                                             hos
                                                                                                         n.--
                                                                                                                                                        r-
                                                                                                                                                                                                                          w.-- - ---
                                    c.::- ..                                                    c=-                                          i. -                            -'w                     cne                  ..\o:...uc:
                                              M": tn- -         =eoC - """I''
                                                                       J. 1
                                                                                            -                        - t,                          ... w..

                                                                                                                                                                                                                              ..c:



                         a=:c icnec i a v =l;                                                                                                                           e "Anti-Ce=i=i=n

 lscal17
                     II I!::ese ==
 .:i==me!l-::S mC! ' be
                                                                                                                                icn

                                                                                                                                        f.::unc!
                                                                                                                                                   of

                                                                                                                                                                             Q!E Ci=C'                            l:.= :No. A-
     !:lst::..c'tion                                    er. - E1:d;et E:tsc:                                             icn.
Tb.e eli.:la .;cr. c:: m1.1ti- ea= au-: o:i"t-" for t. e e= endit=e c:
                                                                 eac:,
f'"nc.s will rgsult i:l the i:s:3 cf f j,ds - collected. late 30 to

           scal vsa=. Fer                                    t                       csa f ncs ccllsc ed wi                                                                                      the las
                                                                                                                                                                                                                       q t.
 60 C;7S                        . cf 
                  = fisc                       l vsa=, the
                                       =ocsss of



 f'l=-                                  e!: ==                          est.:j,q - e."'c, :r csi v:.q an ap:;o                                                                                ior.ment                               ane. t:e

 allccat or. of f                                                                    oe
                                                                         cs t= A=eas 


                                                                                                      lcs:s oi fiIc.
                                                                                                                                 d Ser7ics Ur ts will mcs
                                                                                                                                        if all f-:c's must.                                                                           be
 c::r:a. l V' rss'tl-: in                                                                                    i."l which they
 s!=en                              - t.         e fiscal year                                                                                                      e.-a collec-ed.


 Ccnc=ess :sc=                     d established the multi-
     i%e
                                                              anc:
                                                                                              is issue



 ac:cunts . 1=5 cees not wish to lose a:.1Y f-.c.s. MeClca:s
                 icai
              s ccllects must have , at a mi     um, t. e ibili
 Page 8


 to be used for one- full fiscal year beyond the year in which

 they were collected.
The process of billing                   s contiuous.
           and collection

Collections received late in the fiscal year, if not expended

                                               reasur
                          and would not be available to meet
                                                     staf                                   ths act vi ty.forAa
would revert to 


payroll costs for  those       funded by                    Since
this is a ,cash account,          funds mut be cariedadeqte
into the next fiscal year to meet           costs fer at least                         payrll
thee pay              his buffer is imo
                            periods.           because the costs
of payroll are fixed and the flow of collectons is vaiable.

                                                                                            -at
furlough orte:cationca
A disru'Ction of health      would be the
                         of staff caused by a lack  of
                                                       resul t of
                                                        funds to
                                                                                                inevitale
meet pay=oll costs.
Medicare and Medicaid funds are deposited into t. e multi-year
s'Cecial account in accordance with the statute and

aD'CrotJriation acts. 
he OM atJtJortions ths. authoritY to
as - caile!i               for by t. e
                      public law- appropriating t.  f':"la.s for t."l5
operations of t.?Je IES. All func: collected from Mec..icare and
Medicaic. are retu- ed to the Area Office which                                                            collec-:s then
c."ld are generally expended by the Service trn! t                                                          a t   provided
the services.

OIG Reccmrendation
TE   SiO   &J:
          ms                      .. TH DEHONSTRON
                                  UL                  LEGI5LON                    TO

PROG A1JORIZED BY                      A HOR
RERES -AIV SHLE OF        FACIITS
RESTRCTIONS D!OSED ON TH USE OF THSE FTS.
                                          HODIF TH                  II
                                                           PUBC LAIOO-71.3

                                                                                           AN
                                                                                                ro

                                                                                                     ro




PHS Comments

We do not concur. We question the appropriateness of seekig
legislation to expand t.?Je demonstration prograJ authorized by
P. L. 100-       he demonstration program was designed for the
                           713.

expres s purose of allowing tribally contrcted pro am to
directly bill and receive payments. Program
contracted under authority of P.
                                                     are
                                 L. 93- 638 have accou-"ltig
                                                                                                          tht
systems in place and have other fiscal controls which meet all

requirements.  IES facilities (those operated by the Service
Uni t)         do not have separate accountig functions and canot meet
the requirements of the Treasur and GAD to handle funds and 

other accounting functions. As we have stated elsewhere in

these comments                                     ot cost

effective to institute
hospi tal
                            action at the local IES-operated
                          or facili ty.
                                                             ths
                                       1 it would be counterproductive and 

